                           NCUA 2007
                  FINANCIAL STATEMENT AUDITS
                              FOR
                               OPERATING FUND
                            SHARE INSURANCE FUND
                         CENTRAL LIQUIDITY FACILITY
                 COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                  For the year ended December 31, 2007

       Audited Financial Statements               Audit Report Number

           NCUA Operating Fund                         OIG-08-01
 National Credit Union Share Insurance Fund            OIG-08-02
          Central Liquidity Facility                   OIG-08-03
Community Development Revolving Loan Fund              OIG-08-04



                              February 28, 2008



                           _______________________
                              William A. DeSarno
                               Inspector General
                              EXECUTIVE SUMMARY
    PURPOSE AND SCOPE           The National Credit Union Administration (NCUA) Office
                                of Inspector General contracted with the independent
public accounting firm of Deloitte & Touche to perform the financial statement audits of
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Fund, for the year ended December 31,
2007.

The purpose of the audits is to express an opinion on whether the financial statements
are fairly presented. The independent firm also reviewed the internal control structure
and evaluated compliance with laws and regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing standards
and Government Auditing Standards issued by the Comptroller General of the United
States.

    FINANCIAL STATEMENT CONTRACT             The Inspector General contracted with
                                             Deloitte & Touche in August 2006 to
perform the financial statement audits mentioned above. The contract was for 2006,
with options for 2007 and 2008. The Inspector General was the contracting officer for
this contract.

    AUDIT RESULTS         Deloitte & Touche expressed unqualified opinions, stating that
                          the financial statements present fairly, in all material respects,
the financial position of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund, at
December 31, 2007, and the results of operations for the year then ended.

Although Deloitte & Touche did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any significant
deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses in
their review of the Funds’ internal control structures pertinent to financial reporting.
However, during the performance of the audit, we developed recommendations related
to internal control over financial reporting and certain observations and
recommendations on other accounting, administrative, and operating matters. The
observations and recommendations section of this report is restricted to official use
only.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the
Years Ended December 31, 2007 and 2006, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                       1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2007 AND 2006:

 Balance Sheets                                                   2

 Statements of Revenues, Expenses, and Changes in Fund Balance     3

 Statements of Cash Flows                                          4

 Notes to Financial Statements                                    5–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                  10–11
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com



INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Operating
Fund (the “Fund”) as of December 31, 2007 and 2006, and the related statements of revenues, expenses,
and changes in fund balance, and cash flows for the years then ended. These financial statements are the
responsibility of the Fund’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Operating Fund as of December 31, 2007 and 2006, and the results
of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 13,
2008, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.




February 13, 2008




                                                     -5-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                                           2007         2006

ASSETS

CASH AND CASH EQUIVALENTS                                              $ 24,175     $ 25,394

DUE FROM NATIONAL CREDIT UNION SHARE INSURANCE
 FUND (Note 4)                                                               272          -

EMPLOYEE ADVANCES                                                            143          902

OTHER ACCOUNTS RECEIVABLE (Note 5)                                           169          172

PREPAID EXPENSES AND OTHER ASSETS                                           1,799        1,683

FIXED ASSETS — Net of accumulated depreciation and amortization
 (Note 3)                                                                  34,213       35,309

TOTAL                                                                  $ 60,771     $ 63,460


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                      $    4,216   $    3,817
 Obligations under capital leases (Note 6)                                  1,246        2,138
 Accrued wages and benefits                                                 3,225        2,571
 Accrued annual leave                                                       8,575        8,319
 Accrued employee travel                                                        5           11
 Due to National Credit Union Share Insurance Fund                            -             98
 Note payable to National Credit Union Share Insurance Fund (Note 4)       21,120       22,461

       Total liabilities                                                   38,387       39,415

FUND BALANCE (Note 11)                                                     22,384       24,045

TOTAL                                                                  $ 60,771     $ 63,460


See notes to financial statements.




                                                 -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                           2007        2006

REVENUES:
 Operating fees                                          $ 63,961    $ 63,577
 Interest                                                   2,213       2,203
 Other                                                        303         179

       Total revenues                                      66,477      65,959

EXPENSES (Note 4):
 Employee wages and benefits                               51,902      46,740
 Travel                                                     6,802       5,583
 Rent, communications, and utilities                        1,905       1,594
 Contracted services                                        2,961       2,900
 Other                                                      4,568       4,018

       Total expenses                                      68,138      60,835

EXCESS OF (EXPENSES OVER REVENUES)
 REVENUES OVER EXPENSES                                    (1,661)      5,124

FUND BALANCE — Beginning of year                           24,045      18,921

FUND BALANCE — End of year                               $ 22,384    $ 24,045


See notes to financial statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                                               2007          2006

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of (expenses over revenues) revenues over expenses                 $ (1,661)     $    5,124
 Adjustments to reconcile excess of (expenses over revenues)
   revenues over expenses to net cash provided by operating activities:
   Depreciation and amortization                                                3,312         3,719
   Provision for loss on disposal of employee residences held for resale          280           261
   Loss on disposal of fixed assets                                               -               1
 (Increase) decrease in assets:
   Due from National Credit Union Share Insurance Fund                          (370)          231
   Employee advances                                                             759           (67)
   Other accounts receivable                                                       3           308
   Prepaid expenses                                                             (156)         (237)
 (Decrease) increase in liabilities:
   Accounts payable                                                              399         (2,582)
   Accrued wages and benefits                                                    654         (3,820)
   Accrued annual leave                                                          256            122
   Accrued employee travel                                                        (6)            (9)
       Net cash provided by operating activities                                3,470         3,051
CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                     (2,250)       (1,049)
 Purchases of employee residences held for sale                                (1,530)       (1,839)
 Proceeds from sale of employee residences held for resale                      1,290           813
       Net cash used in investing activities                                   (2,490)       (2,075)
CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of note payable                                                    (1,341)       (1,341)
 Principal payments under capital lease obligations                              (858)         (971)
       Net cash used in financing activities                                   (2,199)       (2,312)
NET DECREASE IN CASH AND CASH EQUIVALENTS                                      (1,219)       (1,336)
CASH AND CASH EQUIVALENTS — Beginning of year                                  25,394        26,730
CASH AND CASH EQUIVALENTS — End of year                                    $ 24,175      $ 25,394
SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES —
 Acquisition of equipment under capital lease                              $      83     $    2,781
CASH PAYMENTS FOR INTEREST                                                 $    1,095    $     889


See notes to financial statements.


                                                     -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


 1. ORGANIZATION AND PURPOSE

    The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
    Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
    under the management of the National Credit Union Administration (NCUA) Board for the purpose of
    providing administration and service to the Federal Credit Union System.

 2. SIGNIFICANT ACCOUNTING POLICIES

    Cash Equivalents — The Federal Credit Union Act permits the Fund to make investments in United
    States Government securities or securities guaranteed as to both principal and interest by the United
    States Government. Cash equivalents are highly liquid investments with original maturities of three
    months or less. All investments in 2007 and 2006 were cash equivalents and are stated at cost, which
    approximates fair value.

    Depreciation and Amortization — Building, furniture, equipment and leasehold improvements are
    recorded at cost. Capital leases are recorded at the present value of the future minimum lease payments.
    Depreciation and amortization are computed by the straight-line method over the estimated useful lives
    of the building, furniture, and equipment, and the shorter of the estimated useful life or lease term for
    leasehold improvements and capital leases. Estimated useful lives are forty years for the building and
    three to ten years for the furniture, equipment, and leasehold improvements.

    Operating Fees — The Fund assesses each federally chartered credit union an annual fee based on the
    credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
    providing administration and service to the Federal Credit Union System. The Fund recognizes this
    operating fee revenue ratably over the year.

    Income Taxes — The Fund is exempt from Federal income taxes under Section 501(c) (1) of the
    Internal Revenue Code.

    Fair Value of Financial Instruments — The following methods and assumptions were used in
    estimating the fair value disclosures for financial instruments:

    Cash and cash equivalents, receivables from National Credit Union Share Insurance Fund (NCUSIF)
    and National Credit Union Administration Central Liquidity Facility (NCUA CLF), employee advances,
    other accounts receivable, accounts and notes payable to NCUSIF, and other accounts payable are
    recorded at book values, which approximate the respective fair values.

    Use of Estimates — The preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America requires management to make estimates and
    assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
    and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
    during the reporting period. Actual results could differ from management’s estimates.



                                                    -5-
3. FIXED ASSETS

  Fixed assets are comprised of the following at December 31, 2007 and 2006 (in thousands):

                                                                                2007            2006

    Office building and land                                                 $ 43,358        $ 42,651
    Furniture and equipment                                                    12,812          11,900
    Equipment under capital leases                                              2,846           2,983
    Assets under construction                                                     320             139

            Total                                                              59,336          57,673

    Less accumulated depreciation and amortization                            (25,123)        (22,364)

    Fixed assets — net                                                       $ 34,213        $ 35,309

  Accumulated amortization balances for equipment under capital leases as of December 31, 2007 and
  2006, were (in thousands) $1,718 and $964, respectively.

4. TRANSACTIONS WITH NCUSIF

  Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
  these services based upon an annual allocation factor approved by the NCUA Board and derived from a
  study of actual usage. The allocation factor to NCUSIF was 53.3% in 2007 and 57% in 2006. The cost
  of the services allocated to NCUSIF, which totaled approximately $77,766,000 and $80,642,000 for
  2007 and 2006, respectively, is reflected as a reduction of the corresponding expenses in the
  accompanying financial statements.

  In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
  note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a building in
  1993. Interest costs incurred were approximately $967,000 and $873,000 for 2007 and 2006,
  respectively. The note payable balances at December 31, 2007, and 2006, were approximately
  $21,120,000 and $22,461,000, respectively.

  The above note requires principal repayments at December 31, 2007 as follows (in thousands):

    Years Ending                                                                          Secured
    December 31                                                                          Term Note

    2008                                                                                 $    1,341
    2009                                                                                      1,341
    2010                                                                                      1,341
    2011                                                                                      1,341
    2012                                                                                      1,341
    Thereafter                                                                               14,415

    Total                                                                                $ 21,120




                                                -6-
  The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
  interest rates during 2007 and 2006 were 4.45% and 3.79%, respectively. The interest rates at
  December 31, 2007, and 2006, were 4.39% and 4.29%, respectively.

5. TRANSACTIONS WITH NCUA CLF

  Certain administrative services are provided by the Fund to NCUA CLF. The Fund charges NCUA CLF
  for these services based upon rates approved by the NCUA Board. The costs of the services provided to
  NCUA CLF were $240,000 and $253,000 for 2007 and 2006, respectively, and are reflected as a
  reduction of the corresponding expenses in the accompanying financial statements.

  Other accounts receivable include approximately $103,000 and $95,000 of amounts due from
  NCUA CLF as of December 31, 2007, and 2006, respectively.

6. LEASE COMMITMENTS

  Description of Leasing Agreements — The Fund has entered into a number of lease agreements with
  vendors for the rental of office space, as well as the lease of office equipment that includes laptops,
  printers, monitors, and copiers.

  Operating Leases — The Fund leases office space under lease agreements that expire through 2014.
  Office rental charges amounted to approximately $741,500 and $741,600 of which approximately
  $395,200 and $422,700 was reimbursed by NCUSIF for 2007 and 2006, respectively. In addition, the
  Fund leases office equipment under operating leases with lease terms of less than one year.

  Capital Leases — The Fund leases equipment under lease agreements that expire through 2012.

  The future minimum lease payments as of December 31, 2007, are as follows (in thousands):

    Years Ending                                                                  Operating     Capital
    December 31                                                                    Leases       Leases

    2008                                                                           $ 739        $ 970
    2009                                                                             756          258
    2010                                                                             479            18
    2011                                                                             487            18
    2012                                                                             479             6
    Thereafter                                                                       395          -

    Total                                                                          $ 3,335       1,270

    Less imputed interest                                                                          (24)

    Present value of minimum lease payments                                                     $ 1,246

  Based on the allocation factor approved by the NCUA Board for 2008, NCUSIF will reimburse the Fund
  for approximately 52% of the future operating lease payments.




                                                 -7-
7. RETIREMENT PLANS

   The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
   includes the Federal Employees’ Retirement System (FERS). Both plans are defined benefit retirement
   plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
   Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
   employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions,
   subject to Internal Revenue Service (IRS) limitations, and the Fund will match up to 5% of the
   employees’ gross pay. In 2007 and 2006, the Fund’s contributions to the plans were approximately
   $11,947,000 and $11,630,000, respectively, of which approximately $6,368,000 and $6,629,000,
   respectively, were reimbursed by NCUSIF.

   The Fund does not account for the assets of the above plans and does not have actuarial data with respect
   to accumulated plan benefits or the unfunded liability relative to eligible employees. These amounts are
   reported by the U.S. Office of Personnel Management for the Civil Service Retirement and Disability
   Fund and are not allocated to individual employers.

8. DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows
   (in thousands):

                                                       December 31, 2007             December 31, 2006
                                                      Carrying     Fair             Carrying     Fair
                                                      Amount      Value             Amount      Value

     Cash and cash equivalents                       $ 24,175      $ 24,175        $ 25,394      $ 25,394
     Due from NCUSIF                                      272           272             -             -
     Due to NCUSIF                                        -             -                 98            98
     Employee advances                                    143           143             902           902
     Other accounts receivable                            169           176             172           172
     Accounts payable                                   4,216         4,216           3,817         3,817
     Obligation under capital lease                     1,246         1,246           2,138         2,138
     Note payable to NCUSIF                            21,120        21,120          22,461        22,461

9. CONTINGENCIES

   The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
   opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
   material to the Fund’s financial position.

10. HURRICANE RELATED MATTERS

   As part of its regulatory relief and forbearance efforts for credit unions and their members impacted by
   hurricanes, the NCUA Board allowed credit unions that are located in hurricane-affected areas to pay an
   operating fee that was based on assets that excluded hurricane-related Federal Emergency Management
   Agency and insurance payouts. This resulted in a reduction in operating fee collections in the amount of
   $45,000 and $167,000 during 2007 and 2006, respectively.

   The NCUA Board does not plan to allow hurricane-affected credit unions to pay a reduced operating fee
   in 2008.




                                                    -8-
11. RETAINED EARNINGS APPROPRIATION

   In 2006, the NCUA Board established an appropriation of the Fund’s fund balance in an effort to more
   transparently disclose and communicate to stakeholders earnings that are needed for major projects that
   cannot be accrued or that do not warrant inclusion in the annual operating expense budget. The initial
   appropriation of $1,000,000 is for repairs and maintenance on NCUA’s Alexandria headquarters
   building. In 2007, this amount did not change.

                                              ******




                                                  -9-
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Operating Fund
(the “Fund”), as of and for the year ended December 31, 2007, and have issued our report thereon dated
February 13, 2008. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or a combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose described in
the first paragraph of this section and would not necessarily identify all deficiencies in internal control
that might be significant deficiencies or material weaknesses. We did not identify any deficiencies in
internal control over financial reporting that we consider to be material weaknesses as defined above.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We noted certain matters that we have reported to the management of the Fund in a separate letter dated
February 13, 2008.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Operating Fund and is not intended to be and should not be used by anyone other than these specified
parties.




February 13, 2008
National Credit Union
Share Insurance Fund
Financial Statements as of and for the
Years Ended December 31, 2007 and 2006, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                            Page

INDEPENDENT AUDITORS’ REPORT                                  1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2007 AND 2006:

 Balance Sheets                                              2

 Statements of Operations                                     3

 Statements of Fund Balance                                   4

 Statements of Cash Flows                                     5

 Notes to Financial Statements                              6–13

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED ON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                             14–15
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com


INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund
(the “Fund”) as of December 31, 2007 and 2006, and the related statements of operations, fund balance,
and cash flows for the years then ended. These financial statements are the responsibility of the Fund’s
management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2007 and 2006, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 13,
2008, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




February 13, 2008
NATIONAL CREDIT UNION SHARE INSURANCE FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                                           2007            2006
ASSETS
INVESTMENTS (Note 6)                                                   $ 5,974,315   $ 5,257,216
CASH AND CASH EQUIVALENTS                                               1,391,816        1,683,462
ACCRUED INTEREST RECEIVABLE                                                60,051          63,244
DUE FROM NATIONAL CREDIT UNION ADMINISTRATION
 OPERATING FUND (Note 8)                                                      -                98
ASSETS ACQUIRED IN ASSISTANCE TO INSURED CREDIT
 UNIONS                                                                    65,884          14,461
LOANS TO CREDIT UNIONS                                                        -            15,000
NOTE RECEIVABLE — National Credit Union Administration
 Operating Fund (Note 8)                                                   21,120          22,461
CONTRIBUTIONS RECEIVABLE FROM INSURED CREDIT
 UNIONS                                                                       154              47
FIXED ASSETS — Net of accumulated depreciation and
 amortization (Note 3)                                                        403             762
TOTAL                                                                  $ 7,513,743   $ 7,056,751

LIABILITIES AND FUND BALANCE
LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)               $ 215,780     $     70,229
 Amounts due to insured shareholders of liquidated credit unions           4,893            7,291
 Due to National Credit Union Administration Operating Fund (Note 8)         272              -
 Due to credit unions                                                     30,853              -
 Accounts payable                                                             35              109
 Obligations under capital leases (Note 9)                                   440              806
       Total liabilities                                                  252,273          78,435
FUND BALANCE:
 Insured credit unions’ accumulated contributions                       5,585,256        5,306,286
 Insurance fund balance                                                 1,676,214        1,672,030
       Total fund balance                                               7,261,470        6,978,316
TOTAL                                                                  $ 7,513,743   $ 7,056,751

See notes to financial statements.




                                                    -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                     2007        2006

REVENUES:
 Interest                                         $ 320,163   $ 264,895
 Other                                                1,166       1,326

      Total revenues                               321,329     266,221

EXPENSES (Note 8) —
 Administrative expenses:
  Employee wages and benefits                       59,237      61,958
  Travel                                             7,764       7,401
  Rent, communications, and utilities                2,174       2,113
  Contracted services                                3,379       3,844
  Provision for insurance losses (Note 4)          186,397       2,548
  Other                                              6,664       6,740

      Total expenses                               265,615      84,604

EXCESS OF REVENUES OVER EXPENSES                  $ 55,714    $ 181,617


See notes to financial statements.




                                            -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                     Insured
                                                  Credit Unions’    Insurance
                                                  Accumulated         Fund
                                                  Contributions      Balance

BALANCE — January 1, 2006                         $ 5,128,031      $ 1,490,413

 Contributions from insured credit unions            178,255              -

 Excess of revenues over expenses                        -            181,617

BALANCE — December 31, 2006                         5,306,286       1,672,030

 Contributions from insured credit unions            278,970              -

 Excess of revenues over expenses                        -             55,714

 Dividends to insured credit unions                      -            (51,530)

BALANCE — December 31, 2007                       $ 5,585,256      $ 1,676,214


See notes to financial statements.




                                            -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(Dollars in thousands)


                                                                                              2007               2006

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                       $      55,714      $     181,617
 Adjustments to reconcile excess of revenues over expenses to cash provided by
  operating activities:
  Depreciation and amortization                                                                   314                 415
  Amortization of premiums and discounts on investments — net                                 (24,536)              1,806
  Reserves (recoveries) relating to losses from supervised credit unions — net                145,551              (2,747)
  Decrease (increase) in assets:
   Accrued interest receivable                                                                  3,193            (11,142)
   Assets acquired in assistance to insured credit unions — net                               (51,423)             3,127
  Increase (decrease) in liabilities:
   Amounts due to insured shareholders of liquidated credit unions                             (2,398)               (966)
   Amounts due to National Credit Union Administration Operating Fund                             370                (231)
   Cash assistance liability                                                                      -                (2,357)
   Accounts payable                                                                                (74)                 74
   Due to credit unions                                                                        30,853                 -

       Net cash provided by operating activities                                              157,564            169,596

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loans to credit unions                                                                            -              (15,000)
 Repayment of loans to credit unions                                                            15,000                -
 Purchases of investments                                                                   (2,392,563)        (2,550,812)
 Proceeds from maturities of investments                                                     1,700,000          2,100,000
 Collections on note receivable — National Credit Union Administration Operating Fund            1,341              1,341

       Net cash used in investing activities                                                 (676,222)          (464,471)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                                     278,863            179,948
 Dividends paid                                                                               (51,530)               -
 Principal payments under capital lease obligation                                               (321)              (374)

       Net cash provided by financing activities                                              227,012            179,574

NET DECREASE IN CASH AND CASH EQUIVALENTS                                                    (291,646)          (115,301)

CASH AND CASH EQUIVALENTS — Beginning of year                                               1,683,462          1,798,763

CASH AND CASH EQUIVALENTS — End of year                                                 $ 1,391,816        $ 1,683,462

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES — Acquisition of
 equipment under capital lease                                                          $         -        $       1,073

CASH PAYMENTS FOR INTEREST                                                              $             15   $            5


See notes to financial statements.




                                                              -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


 1. ORGANIZATION AND PURPOSE

    The National Credit Union Share Insurance Fund (the “Fund” or “NCUSIF”) was created by the Public
    Law 91-468 (Title II of the Federal Credit Union Act), which was amended in 1984 by Public
    Law 98-369. The Fund was established as a revolving fund in the United States Treasury under the
    management of the National Credit Union Administration (NCUA) Board for the purpose of insuring
    member share deposits in all federal credit unions and in qualifying state credit unions that request
    insurance. The maximum amount of insurance is $100,000 per shareholder account and $250,000 on
    certain retirement accounts.

    NCUA exercises direct supervisory authority over federal credit unions and coordinates required
    supervisory involvement with the state chartering authority for state-chartered credit unions insured by
    the Fund. Insured credit unions are required to report certain financial and statistical information to
    NCUA on a semiannual or quarterly basis depending on the size of the credit union and are subject to
    periodic examination by NCUA. Information derived through the supervisory and examination process
    provides the Fund with the ability to identify credit unions experiencing financial difficulties that may
    require assistance from the Fund.

    Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their
    operations if these difficulties are considered by the Fund to be temporary or correctable. This special
    assistance may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or
    cash assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a
    merger partner may be sought. If the assistance or merger alternatives are not practical, the credit union
    is liquidated.

    The first form of special assistance is waivers of statutory reserve requirements, whereby the credit
    union is permitted to cease making additions to its regular reserve and, in more severe cases, to
    commence charging operating losses against its regular reserve. When all reserves have been depleted
    by the credit union, the Fund may provide a reserve guarantee account in the amount of the reserve
    deficit. In addition, the Fund may provide cash assistance in the form of share deposits and NCUSIF
    subordinated notes, or may purchase assets from the credit union.

    Mergers of financially troubled credit unions with stronger credit unions may also require Fund
    assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
    Fund, and/or guarantees of the values of certain assets (primarily loans).

    When a credit union is no longer able to continue operating and the merger and assistance alternatives
    are not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’ shares
    up to the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
    guaranteed to third-party purchasers by the Fund.




                                                     -6-
2. SIGNIFICANT ACCOUNTING POLICIES

  Investments — Title II of the Federal Credit Union Act limits the Fund’s investments to United States
  Government securities or securities guaranteed as to both principal and interest by the United States
  Government. All investments are classified as held-to-maturity under Statement of Financial Standards
  No. 115, Accounting for Certain Investments in Debt and Equity Securities. Accordingly, the Fund
  records investments at amortized cost. Amortized cost is the face value of the securities, plus the
  unamortized premium or less the unamortized discount.

  Cash and Cash Equivalents — The Federal Credit Union Act permits the Fund to make investments in
  United States Government securities or securities guaranteed as to both principal and interest by the
  United States Government. Cash equivalents are highly liquid investments with original maturities of
  three months or less.

  Assets Acquired in Assistance to Insured Credit Unions — The Fund acquires the assets of
  liquidating credit unions pending their ultimate disposition. To assist in the merger of credit unions, the
  Fund may purchase certain credit union assets. In addition, the Fund may provide cash assistance by
  acquiring nonperforming assets of a credit union experiencing financial difficulty. These acquired assets
  are maintained by the Asset Management and Assistance Center in Austin, TX, and are recorded by the
  Fund at their estimated net realizable value.

  Advances to Insured Credit Unions — The Fund provides cash assistance in the form of interest and
  noninterest-bearing NCUSIF subordinated notes (carried at face value), share deposits, and loans to
  certain credit unions to assist them in continuing their operations.

  Depreciation and Amortization — Furniture and equipment are recorded at cost. Equipment acquired
  under capital lease agreements is recorded at the present value of the future minimum lease payments.
  Depreciation and amortization are computed by the straight-line method over the estimated useful lives
  of the furniture and equipment and the shorter of the estimated useful life or lease term for capital leases.
  Estimated useful lives are three years for the furniture, equipment, and capital leases.

  Guarantees — Guarantees are recorded in accordance with FASB Interpretation No. 45, Guarantor’s
  Accounting and Disclosure Requirements for Guarantees, Including Indirect Guarantees of
  Indebtedness of Others, which requires the Fund to recognize, at the inception of a guarantee, a liability
  for the fair value of obligation undertaken in issuing the guarantee.

  Premium Revenue — The Fund may assess each insured credit union a premium charge for insurance
  in an amount stated as a percentage of insured shares outstanding as of December 31 of the preceding
  insurance year if the Fund’s equity ratio is less than 1.3% ( Note 5).

  Income Taxes — The Fund is exempt from federal income taxes under Section 501(c)(1) of the Internal
  Revenue Code.

  Fair Value of Financial Instruments — The following methods and assumptions were used in
  estimating the fair value disclosures for financial instruments:

  Investments — The fair value for investments is the quoted market value.

  Cash and Cash Equivalents — The carrying amounts for cash and cash equivalents approximate fair
  values.




                                                   -7-
  Loans to Credit Unions — It is not practicable to estimate the fair value of these assets, as there is no
  secondary market. All outstanding loans are secured by a perfected lien against the assets of the credit
  union and are fully secured.

  Other — Accrued interest receivable, due from/to NCUA Operating Fund, note receivable from NCUA
  Operating Fund, contributions receivable from insured credit unions, due to insured shareholders of
  liquidated credit unions, accounts payable, and obligations under capital leases are recorded at book
  values, which approximate the respective fair values.

  Use of Estimates — The preparation of financial statements in conformity with accounting principles
  generally accepted in the United States of America requires management to make estimates and
  assumptions that affect the reported amounts of assets and liabilities, and disclosures of contingent assets
  and liabilities at the date of the financial statements, and the reported amounts of revenues and expenses
  during the reporting period. Actual results could differ from management’s estimates. The more
  significant estimates include the estimated losses from supervised credit unions and the allowance for
  loss on assets acquired in assistance to insured credit unions.

3. FIXED ASSETS

  At December 31, 2007 and 2006, fixed assets are comprised of the following (in thousands):

                                                                                         2007        2006
    Furniture and equipment                                                          $     501     $ 501
    Equipment under capital leases                                                       1,027      1,073
           Total                                                                         1,528      1,574
    Less — accumulated depreciation and amortization                                     (1,125)     (812)
    Fixed assets — net                                                               $     403     $ 762

  Accumulated amortization balances for equipment under capital leases as of December 31, 2007 and
  2006, totaled (in thousands) $624 and $311, respectively.

4. PROVISION FOR INSURANCE LOSSES

  Management identifies credit unions experiencing financial difficulty through NCUA’s supervisory and
  examination process. The estimated losses from these supervised credit unions are determined by
  management on a specified case basis. Management also evaluates overall economic trends and
  monitors potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies,
  and delinquencies. NCUA applies a rating system to assess a credit union’s financial condition and
  operations in the areas of Capital Adequacy, Asset Quality, Management, Earnings, and Asset/Liability
  Management (“CAMEL”). The CAMEL Rating System is a tool to measure risk and allocate resources
  for supervisory purposes. NCUA periodically reviews the CAMEL Rating System to respond to
  continuing economic and regulatory changes in the credit union industry. For nonspecified case reserve
  requirements, risk profile categories are established based on the CAMEL ratings of problem credit
  unions, and probable failure and loss rates are applied based on historical data. The anticipated losses are
  net of estimated recoveries from the disposition of the assets of failed credit unions.




                                                   -8-
Total estimated insurance in force as of December 31, 2007 and 2006 is $561.9 billion and
$535.3 billion, respectively, which includes natural person and corporate credit unions. The total net
reserves for identified and anticipated losses from supervised credit unions’ failures are $216 million
and $70 million at December 31, 2007 and 2006, respectively.

In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
loans) to third-party purchasers or to credit unions to facilitate mergers. The Fund would be obligated
upon nonperformance. No such guarantees were outstanding at December 31, 2007 and 2006. The
estimated losses from asset and merger guarantees are determined by management on a case-by-case
evaluation.

In addition, the Fund may grant a guaranteed line-of-credit to a third-party credit provider, such as a
corporate credit union or bank, if a credit union has a current or immediate liquidity concern and the
credit provider has refused to extend credit without a guarantee. The Fund would be obligated if the
credit union failed to perform. Total line-of-credit guarantees of credit unions at December 31, 2007 and
2006 are approximately $206.5 million and $20 million, respectively. The total balances outstanding
under these line-of-credit guarantees at December 31, 2007 and 2006 are approximately $109.5 million
and $0, respectively. The carrying amount of the liability as of December 31, 2007 and 2006 for the
outstanding NCUSIF guarantees is $5.1 million and $422,876, respectively. All guarantees outstanding
at December 31, 2007 expire on March 31, 2008 and May 31, 2008.

From time to time, the Fund provides indemnifications in merger assistance agreements to acquiring
credit unions. Such indemnifications make the Fund contingently liable based on the outcome of legal
actions. No such indemnification contingencies existed at December 31, 2007 and 2006.

The activity in the reserves for estimated losses from supervised credit unions for the periods ended
December 31, 2007 and 2006 was as follows (in thousands):

                                                                                    2007            2006

  Beginning balance                                                              $ 70,229       $ 72,976

   Insurance losses                                                               (48,484)        (10,833)
   Recoveries                                                                       7,638           5,538
   Provision for insurance losses                                                 186,397           2,548

  Ending balance                                                                 $ 215,780      $ 70,229

The increase in the provision for insurance losses is due to the following:

Specific reserves — increased from $19,062,296 at December 31, 2006, to $161,630,199 at
December 31, 2007.

General reserves — increased from $51,167,075 at December 31, 2006, to $54,150,000 at December 31,
2007.

The increased level of specific reserves is attributable to the presence of high-risk business activities of a
small number of credit unions that were vulnerable to adverse economic and market conditions. The
higher provision for insurance losses is also attributed to the deterioration in economic conditions.




                                                  -9-
  In addition to these recorded contingent liabilities, additional risk in the financial services industry could
  result in additional loss to the NCUSIF. The accuracy of the estimated losses from supervised credit
  unions will largely depend upon future economic and market conditions.

5. FUND CAPITALIZATION

  The Credit Union Membership Access Act of 1998 (CUMAA) mandated changes to the Fund’s
  capitalization provisions effective January 1, 2000. Each insured credit union shall pay to and maintain
  with the Fund a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
  each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
  determined by the NCUA Board, to reflect changes in the credit union’s insured shares: (i) annually, in
  the case of an insured credit union with total assets of not more than $50 million; and (ii) semiannually,
  in the case of an insured credit union with total assets of $50 million or more. The annual and
  semiannual adjustments are based on member share deposits outstanding as of December 31 of the
  preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to the
  insured credit union in the event that its insurance coverage is terminated, or is obtained from another
  source, or the operations of the Fund are transferred from the NCUA Board.

  The CUMAA mandates certain premium charges from insured credit unions and distributions from the
  Fund under certain circumstances. A premium charge to insured credit unions is required if the Fund’s
  equity ratio (as defined in the CUMAA) falls below 1.2% of insured shares. Also, pro-rata distributions
  to insured credit unions after each calendar year are required if, as of year-end:

   (i) Any loans to the Fund from the Federal Government, and any interest on those loans, have been
       repaid;

  (ii) The Fund’s equity ratio exceeds the normal operating level (as defined in the CUMAA, an equity
       ratio specified by the NCUA Board, which shall be not less than 1.2% and not more than 1.5%);
       and

  (iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1%.

  The NCUA Board set the normal operating level for 2008 and 2007 at 1.30%. The calculated equity
  ratios at December 31, 2007 and 2006 were 1.292% and 1.304%, respectively.

  Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which are
  based upon year-end reports of insured shares. Accordingly, dividends associated with insured shares at
  year-end are declared and paid in the subsequent year.

  The NCUA Board will not declare dividends payable on insured shares as of December 31, 2007,
  because the equity ratio of 1.292% is below the normal operating level of 1.30%. Dividends of $51,530
  were declared and paid during 2007 because the equity ratio at December 31, 2006, of 1.304% was
  above the normal operating ratio of 1.30%. Total insured shares as of December 31, 2007 and 2006,
  were estimated to be $561.9 billion and $535.3 billion, respectively.

6. INVESTMENTS

  All cash received by the Fund that is not used for outlays related to assistance to insured credit unions
  and liquidation activities is invested in U.S. Treasury securities.




                                                   - 10 -
  At December 31, 2007 and 2006, investments consist of the following (in thousands):

                                                                        2007
                                          Yield to
                                         Maturity                          Gross         Gross         Estimated
                                         at Market         Amortized     Unrealized    Unrealized       Market
                                    (At Purchase Date)       Cost          Gains        Losses           Value

    U.S. Treasury Securities:
     Maturities up to one year             4.26 %         $ 1,594,463   $      8,709   $      -       $ 1,603,172
     Maturities after one year
      through five years                   4.53 %          4,379,852        143,570                    4,523,422

    Total                                                 $ 5,974,315   $ 152,279      $      -       $ 6,126,594

                                                                        2006
                                          Yield to
                                         Maturity                          Gross         Gross         Estimated
                                         at Market         Amortized     Unrealized    Unrealized       Market
                                    (At Purchase Date)       Cost          Gains        Losses           Value

    U.S. Treasury Securities:
     Maturities up to one year             2.96 %         $ 1,703,200   $       -      $ (13,138)     $ 1,690,062
     Maturities after one year
      through five years                   4.48 %          3,554,016                       (11,891)    3,542,125

    Total                                                 $ 5,257,216   $       -      $ (25,029)     $ 5,232,187


  Total investment purchases during 2007 and 2006 were approximately $2.4 billion and $2.6 billion,
  respectively. Investment maturities during 2007 and 2006 were approximately $1.7 billion and
  $2.1 billion, respectively. The Fund has the capability and management has the intention to hold all
  investments held at December 31, 2007 and 2006, to maturity. There were no investment sales during
  2007 and 2006.

7. AVAILABLE BORROWINGS

  The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United
  States, upon authorization by the NCUA Board, up to a maximum of $100,000,000. The NCUA Central
  Liquidity Facility is authorized to make advances to the Fund under terms and conditions established by
  the NCUA Board. No borrowings were obtained from these sources during 2007 and 2006.

8. TRANSACTIONS WITH NCUA OPERATING FUND

  Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
  Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
  NCUA Board and derived from a study of actual usage conducted by the management of these Funds.
  The allocation factor was 53.3% to the Fund for 2007 and 57% for 2006. The cost of services provided
  by the NCUA Operating Fund was approximately $77,766,000 and $80,642,000 for 2007 and 2006,
  respectively, and includes pension contributions of approximately $6,368,000 and $6,629,000 to the
  Civil Service Retirement System and Federal Employees Retirement System defined benefit retirement
  plans for 2007 and 2006, respectively.

  In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
  term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund as




                                                 - 11 -
  needed to fund the costs of constructing a building. Interest income was approximately $967,000 and
  $873,000 for 2007 and 2006, respectively. The note receivable balances at December 31, 2007 and 2006
  were approximately $21,120,000 and $22,461,000, respectively.

  The above note matures as follows (in thousands):

    Years Ending                                                                               Secured
    December 31                                                                               Term Note

    2008                                                                                      $ 1,341
    2009                                                                                        1,341
    2010                                                                                        1,341
    2011                                                                                        1,341
    2012                                                                                        1,341
    Thereafter                                                                                 14,415

    Total                                                                                     $ 21,120

  The variable rate on the term note is equal to the Fund’s prior-month yield on investments. The average
  interest rates during 2007 and 2006 were approximately 4.45% and 3.79%, respectively. At
  December 31, 2007 and 2006, the rates were 4.39 % and 4.29%, respectively.

  The NCUA Operating Fund leases certain office space and equipment under operating lease agreements
  that expire through 2014. Based on the allocation factor determined by the NCUA’s Board, the Fund
  reimbursed the NCUA Operating Fund approximately 53.3% of the total lease payments. The cost of
  services provided by the NCUA Operating Fund includes rental charges of approximately $395,200 and
  $422,700 for December 31, 2007 and 2006, respectively.

  Based on the allocation factor approved by the NCUA Board for 2008, NCUSIF will reimburse the Fund
  for approximately 52% of the future operating lease payments. The Fund’s allocation of the NCUA
  Operating Fund’s total future minimum lease payments on operating leases as of December 31, 2007, is
  expected to be as follows (in thousands):

    Years Ending
    December 31

    2008                                                                                       $ 384
    2009                                                                                         393
    2010                                                                                         249
    2011                                                                                         253
    2012                                                                                         249
    Thereafter                                                                                   206

    Total                                                                                      $ 1,734

9. LEASE COMMITMENTS

  Description of Leasing Agreements — The Fund has entered into lease agreements with vendors for
  the lease of equipment that includes computers, laptops, and printers. The Fund leases computer
  equipment under capital lease agreements that expire through 2009.




                                                - 12 -
   A schedule of future minimum lease payments as of December 31, 2007, is as follows (in thousands):

     2008                                                                                            $ 360
     2009                                                                                               90

            Total                                                                                      450

     Less imputed interest                                                                             (10)

     Present value of minimum lease payments                                                         $ 440

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of the Fund’s financial instruments, at December 31,
   2007 and 2006 are as follows:

                                                        2007                                2006
                                            Carrying            Fair            Carrying            Fair
                                            Amount             Value            Amount             Value

     Investments                         $ 5,974,315        $ 6,126,594       $ 5,257,216      $ 5,232,187
     Cash and cash equivalents             1,391,816          1,391,816         1,683,462        1,683,462
     Accrued interest receivable              60,051             60,051            63,244           63,244
     Loans to credit unions                                                        15,000           15,000
     Notes receivable — NCUA
      Operating Fund                          21,120            21,120             22,461           22,461
     Contributions receivable from
      insured credit unions                      154               154                 47                  47
     Amounts due to insured
      shareholders of liquidated
      credit unions                             4,893            4,893              7,291            7,291
     Due (to) from NCUA
      Operating Fund                            (272)             (272)                98               98
     Accounts payable                         30,888            30,888                109              109
     Obligations under capital
      leases                                     440               440                806              806

11. CONCENTRATIONS

   There are no significant concentrations of member share deposits within any region of the United States.
   Concentrations of member shares do exist within the manufacturing, governmental, and educational
   industries.

12. CONTINGENCIES

   The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
   opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
   material to the Fund’s financial position.

                                                ******




                                                   - 13 -
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Share Insurance Fund
(the “Fund”), as of and for the year ended December 31, 2007, and have issued our report thereon dated
February 13, 2008. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness
of the Fund’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.




                                                     14
Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

We noted certain matters that we reported to management of the Fund in a separate letter dated February
13, 2008.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Share
Insurance Fund, and is not intended to be, and should not be, used by anyone other than these specified
parties.




February 13, 2008




                                                   15
National Credit Union
Administration Central
Liquidity Facility
Financial Statements as of and for the
Years Ended December 31, 2007 and 2006,
and Independent Auditors’ Reports




                                  16
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                    Page

INDEPENDENT AUDITORS’ REPORT                          1

FINANCIAL STATEMENTS AS OF AND FOR THE
  YEARS ENDED DECEMBER 31, 2007 AND 2006:

 Balance Sheets                                      2

 Statements of Operations                             3

 Statements of Members’ Equity                        4

 Statements of Cash Flows                             5

 Notes to Financial Statements                       6–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL
  OVER FINANCIAL REPORTING AND ON COMPLIANCE AND
  OTHER MATTERS BASED UPON THE AUDIT PERFORMED IN
  ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS     10–11




                                        17
                                                                                          Deloitte & Touche LLP
                                                                                          Suite 800
                                                                                          1750 Tysons Boulevard
                                                                                          McLean, VA 22102-4219
INDEPENDENT AUDITORS’ REPORT                                                              USA

                                                                                          Tel: 703-251-1000
                                                                                          Fax: 703-251-3400
To the Inspector General of                                                               www.us.deloitte.com
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2007 and 2006, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the
responsibility of CLF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Central Liquidity Facility as of December 31, 2007 and 2006,
and the results of its operations and its cash flows for the years then ended in conformity with accounting
principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 13,
2008, on our consideration of CLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements and other matters.
The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audits.




February 13, 2008




                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
AS OF DECEMBER 31, 2007 AND 2006
(In thousands)


                                                            2007            2006
ASSETS

ASSETS:
 Cash                                                 $         12    $         12
 Investments with U.S. Central Federal Credit
  Union (Notes 5, 8, 9, and 11)                           1,638,285       1,549,678
 Accrued interest receivable                                 23,922          21,386

TOTAL                                                 $ 1,662,219     $ 1,571,076


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities               $        132    $        130
 Dividends payable (Note 7)                                 23,777          21,267
 Member deposits (Note 7)                                      642             622

       Total liabilities                                    24,551          22,019

MEMBERS’ EQUITY:
 Capital stock — required (Note 7)                        1,626,260       1,537,649
 Retained earnings                                           11,408          11,408

       Total members’ equity                              1,637,668       1,549,057

TOTAL                                                 $ 1,662,219     $ 1,571,076


See notes to financial statements.




                                                -2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(In thousands)


                                                            2007         2006

REVENUE :
 Investment income                                        $ 89,259     $ 78,213
 Interest — loans to members (Note 6)                          -             75

      Total revenue                                         89,259       78,288

EXPENSES (Note 10):
 Personnel services                                           144          141
 Other services                                                48           63
 Rent, communications, and utilities                           10            8
 Personnel benefits                                            33           33
 Supplies and materials                                         1            3
 Printing and reproduction                                      4            5

      Total operating expenses                                240          253

 Interest — Federal Financing Bank loans (Note 6)             -             75
 Interest — liquidity reserve                                     53        37

      Total expenses                                          293          365

EXCESS OF REVENUE OVER EXPENSES                           $ 88,966     $ 77,923


See notes to financial statements.




                                                    -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(In thousands)


                                                   Capital     Retained
                                                   Stock       Earnings

BALANCE — January 1, 2006                        $ 1,458,445   $ 11,408

 Issuance of required capital stock                  81,143        -

 Redemption of required capital stock                (1,939)       -

 Dividends                                             -        (77,923)

 Excess of revenue over expenses                           -     77,923

BALANCE — December 31, 2006                       1,537,649      11,408

 Issuance of required capital stock                  89,709        -

 Redemption of required capital stock                (1,098)       -

 Dividends                                             -        (88,966)

 Excess of revenue over expenses                           -     88,966

BALANCE — December 31, 2007                      $ 1,626,260   $ 11,408


See notes to financial statements.




                                        -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006
(In thousands)


                                                                 2007            2006

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                            $ 88,966        $ 77,923
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
  Increase in accrued interest receivable                        (2,536)         (6,829)
  Increase in accounts payable and other liabilities                  2              10

      Net cash provided by operating activities                 86,432          71,104

CASH FLOWS FROM INVESTING ACTIVITIES —
 Purchase of investments — net                                  (88,607)        (79,288)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                     1,872           1,578
 Issuance of required capital stock                              89,709          81,143
 Dividends                                                      (86,456)        (71,131)
 Withdrawal of member deposits                                   (1,852)         (1,465)
 Redemption of required capital stock                            (1,098)         (1,939)

      Net cash provided by financing activities                  2,175           8,186

NET INCREASE IN CASH                                               -                  2

CASH — Beginning of year                                               12           10

CASH — End of year                                          $          12   $       12

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION — Cash paid during the year for interest       $          52   $      108


See notes to financial statements.




                                                  -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


 1. ORGANIZATION AND PURPOSE

    The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
    Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a mixed-ownership
    government corporation under the Government Corporation Control Act. CLF exists within the National
    Credit Union Administration (NCUA) and is managed by the National Credit Union Administration
    Board. CLF became operational on October 1, 1979.

    The purpose of CLF is to improve general financial stability by meeting the liquidity needs of credit
    unions. CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

 2. SIGNIFICANT ACCOUNTING POLICIES

    Basis of Accounting — CLF maintains its accounting records on the accrual basis of accounting.

    Loans and Allowance for Loan Losses — Loans, when made to members, are on a short-term or long-
    term basis. For all loans, CLF may obtain a security interest in the assets of the borrower. In determining
    the allowance for loan losses, when applicable, CLF evaluates the collectibility of its loans to members
    through examination of the financial condition of the individual borrowing credit unions and the credit
    union industry in general.

    Funds on Deposit with U.S. Central Federal Credit Union — CLF invests in redeposits and share
    accounts at U.S. Central Federal Credit Union (USC) (Notes 5 and 9). These are nontransferable,
    nonnegotiable instruments that are acquired at face value and carried at cost.

    Fair Value of Financial Instruments — The following methods and assumptions were used in
    estimating the fair value disclosures for financial instruments:

    Cash — The carrying amounts for cash approximate fair value.

    Investments — Fair values of financial instruments with maturities over one year are computed using the
    market rate of interest at year-end. For financial instruments with maturities of one year or less, the
    carrying amounts approximate fair value.

    Loans — For loans advanced to member credit unions, the carrying amounts approximate fair value.

    Member Deposits — Funds maintained with the CLF in excess of required capital amounts are recorded
    as member deposits. These deposits are due upon demand, and the carrying amounts approximate the
    fair value.

    FFB Notes Payable — For notes issued to the Federal Financing Bank (FFB), when applicable, the
    carrying amounts approximate fair value.




                                                    -6-
  Other — Accrued interest receivable, accounts payable, and other liabilities are recorded at book values,
  which approximate the respective fair values.

  Use of Estimates — The preparation of financial statements in conformity with accounting principles
  generally accepted in the United States of America requires management to make estimates and
  assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
  and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
  during the reporting period. Actual results could differ from management’s estimates.

3. GOVERNMENT REGULATIONS

  CLF is subject to various Federal laws and regulations. CLF’s operating budget requires Congressional
  approval, and CLF may not make loans to members for the purpose of expanding credit union loan
  portfolios. CLF’s investments are restricted to obligations of the U.S. Government and its agencies,
  deposits in federally insured financial institutions, and shares and deposits in credit unions. Borrowing is
  limited by statute to 12 times the subscribed capital stock and surplus. However, there is a Congressional
  limitation of $1.5 billion on funds that are borrowed and then loaned out to credit unions at any one
  point in time.

  At December 31, 2007 and 2006, CLF was in compliance with its borrowing authority. Borrowings
  would be from the FFB with interest generally payable upon maturity (Note 6).

4. LOANS TO MEMBERS

  There were no loans or loan commitments outstanding at December 31, 2007 and 2006. CLF can
  provide members with extended loan commitments.

5. FUNDS ON DEPOSIT WITH U.S. CENTRAL FEDERAL CREDIT UNION

  Funds not currently required for operations at December 31, 2007 and 2006, are invested as follows
  (in thousands):

                                                                                 2007             2006

    U.S. Central Federal Credit Union Share Account                         $ 1,632,285       $ 1,545,678
    U.S. Central Federal Credit Union Share Certificates                          6,000             4,000

                                                                            $ 1,638,285       $ 1,549,678

  A Memorandum of Understanding (MOU), effective July 1, 2005, sets forth the understanding of CLF
  and the USC concerning the investments by CLF in USC Share Account and Certificates.

  As provided in the MOU, all investments by CLF in shares of USC will be in either the Share Account
  or Share Certificates. The Share Account is a three-month, fixed rate account that provides for automatic
  re-investment at maturity and daily availability of funds with no penalty for early withdrawal. The Share
  Account is only available to CLF. In the event of liquidation of the USC, shares in the account will be
  redeemable in full, prior to the redemption of any other shares of USC.




                                                   -7-
  The Share Certificates are fixed rate, with a maturity fixed upon issuance (three or five years under the
  current MOU). Redemption prior to maturity is permitted, in whole or in part, if the CLF requests early
  redemption and if the USC and the CLF agree on an early redemption value. The Share Certificates are
  neither negotiable nor assignable.

6. BORROWING AUTHORITY

  CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
  subscribed capital stock and surplus.

  On July 15, 1999, the National Credit Union Administration signed a note purchase agreement with the
  Federal Financing Bank on behalf of CLF. The first promissory note under that note purchase
  agreement originally provided for a commitment of $20.7 billion. Subsequently, the note purchase
  agreement expired on September 30, 2000, and was extended through amendments annually. The
  amount of each promissory note was reduced to $5 billion and expires yearly on the 31st of March. The
  current promissory note expires March 31, 2008. Congress, however, has restricted CLF’s borrowing
  authority to $1.5 billion for the fiscal years 2006, 2007 and 2008, for the principal amount of new direct
  loans to member credit unions. Borrowings would be from the Federal Financing Bank with interest
  generally payable upon maturity. During 2006, CLF borrowed amounts totaling $6,210,600 from the
  Federal Financing Bank under two separate loan agreements, which it, in turn, loaned to a member credit
  union. All amounts borrowed during 2006 were repaid by December 31, 2006. No borrowing or
  lending occurred during 2007.

  The Secretary of the Treasury is authorized by the Act to lend up to $500 million to CLF in the event
  that the NCUA Board certifies to the Secretary that CLF does not have sufficient funds to meet the
  liquidity needs of credit unions. This authority to lend is limited to such extent and in such amounts as
  are provided in advance by Congressional Appropriation Acts. On December 23, 1981, the President
  signed PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may
  be provided by the Secretary of the Treasury to CLF to meet emergency liquidity needs of credit unions.

7. CAPITAL STOCK AND MEMBER DEPOSITS

  The required capital stock account represents subscriptions remitted to CLF by member credit unions.
  Regular members’ required subscription amounts equal one-half of one percent of their paid-in and
  unimpaired capital and surplus, one-half of which is required to be remitted to CLF. Agent members’
  required subscription amounts equal one-half of one percent of the paid-in and unimpaired capital and
  surplus of all of the credit unions served by the agent member, one-half of which is required to be
  remitted to CLF. In both cases, the remaining one-half of the subscription is required to be held in liquid
  assets by the member credit unions subject to call by the NCUA Board. These unremitted subscriptions
  are not reflected in CLF’s financial statements. Subscriptions are adjusted annually to reflect changes in
  the member credit unions’ paid-in and unimpaired capital and surplus. Dividends are declared and paid
  on required capital stock.

  Member deposits represent amounts remitted by members over and above the amount required for
  membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
  required capital stock.

  Dividends payable represents dividends declared in 2007 and 2006 to be paid in 2008 and 2007,
  respectively.




                                                  -8-
8. U.S. CENTRAL FEDERAL CREDIT UNION MEMBERSHIP

   During fiscal year 1984, CLF accepted a membership request from USC on behalf of its corporate credit
   union members. At December 31, 2007 and 2006, $1,565,647,000 and $1,479,256,000, respectively, of
   the required portion of subscribed capital stock were purchased from CLF by USC on behalf of member
   credit unions of its corporate credit union members. The USC has 26 and 28 corporate credit union
   members as of December 31, 2007 and 2006, respectively.

   CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
   2007 and 2006, approximately $1,638,285,000 and $1,549,678,000, respectively, were invested in USC
   accounts at 5.77% and 5.46% respective yields, respectively.

9. CONCENTRATION OF CREDIT RISK

   At December 31, 2007 and 2006, CLF has a concentration of credit risk for its investments on deposit
   with USC of approximately $1,638,285,000 and $1,549,678,000, respectively (see Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

   The NCUA provides CLF with data processing and other miscellaneous services and supplies. In
   addition, the NCUA pays CLF’s employees’ salaries and benefits as well as CLF’s portion of monthly
   building operating costs. CLF reimburses the NCUA on a monthly basis for these items. The total
   amounts charged by the NCUA were approximately $240,000 and $253,000 for the years ended
   December 31, 2007 and 2006, respectively. As of December 31, 2007 and 2006, accounts payable and
   other liabilities include approximately $103,000 and $95,000, respectively, due to the NCUA Operating
   Fund for services provided.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of CLF’s financial instruments at December 31, 2007
   and 2006, are as follows (in thousands):

                                                  December 31, 2007               December 31, 2006
                                                Carrying        Fair            Carrying        Fair
                                                Amount         Value            Amount         Value

     Cash                                   $        12     $      12       $        12     $       12
     Funds on deposit with U.S.
      Central Federal Credit Union          1,638,285       1,638,473       1,549,678       1,549,668
     Accrued interest receivable               23,922          23,922          21,386          21,386
     Accounts payable and other
      liabilities                                   132            132              130            130
     Dividends payable                           23,777         23,777           21,267         21,267
     Member deposits                                642            642              622            622

                                                ******




                                                    -9-
                                                                                          Deloitte & Touche LLP
                                                                                          Suite 800
                                                                                          1750 Tysons Boulevard
                                                                                          McLean, VA 22102-4219
                                                                                          USA

                                                                                          Tel: 703-251-1000
                                                                                          Fax: 703-251-3400
                                                                                          www.us.deloitte.com
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Central Liquidity
Facility (CLF) as of and for the year ended December 31, 2007, and have issued our report thereon dated
February 13, 2008. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered CLF’s internal control over financial reporting as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CLF’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CLF’s internal
control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the entity’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than inconsequential will not
be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be presented
or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether CLF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,



                                                                                  Member of
                                                                                  Deloitte Touche Tohmatsu
and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

We noted certain matters that we reported to management of CLF in a separate letter dated February 13,
2008.

This report is intended solely for the information and use of the Inspector General, the Board of the National
Credit Union Administration, and the management of the National Credit Union Administration Central
Liquidity Facility and is not intended to be, and should not be, used by anyone other than these specified
parties.




February 13, 2008
National Credit Union
Administration Community
Development Revolving
Loan Fund
Financial Statements as of and for the Years Ended
December 31, 2007 and 2006, and Independent
Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS


                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                             1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2007 AND 2006:

 Balance Sheets                                                         2

 Statements of Operations                                                3

 Statements of Changes in Fund Balance                                   4

 Statements of Cash Flows                                                5

 Notes to Financial Statements                                          6–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
  PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS           10–11
                                                                                           Deloitte & Touche LLP
                                                                                           Suite 800
                                                                                           1750 Tysons Boulevard
                                                                                           McLean, VA 22102-4219
                                                                                           USA
                                                                                           Tel: +1 703 251 1000
                                                                                           Fax: +1 703 251 3400
                                                                                           www.deloitte.com

INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of December 31, 2007 and 2006, and the related
statements of operations, changes in fund balance, and cash flows for the years then ended. These
financial statements are the responsibility of the management of CDRLF. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CDRLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Community Development Revolving Loan Fund as of
December 31, 2007 and 2006, and the results of its operations and its cash flows for the years then ended
in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 13,
2008, on our consideration of CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.



February 13, 2008
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2007 AND 2006


                                                       2007           2006

ASSETS

CASH AND CASH EQUIVALENTS                          $ 2,931,422    $ 8,668,980

LOANS — Net of allowance (Note 4)                   13,292,065      7,386,864

INTEREST RECEIVABLE                                     30,154         17,703

TOTAL                                              $ 16,253,641   $ 16,073,547


LIABILITIES AND FUND BALANCE

LIABILITIES — Accrued technical assistance         $ 1,308,135    $ 1,091,418

FUND BALANCE:
 Revolving fund capital (Note 3)                    13,435,642     13,435,642
 Accumulated earnings                                1,509,864      1,546,487

       Total fund balance                           14,945,506     14,982,129

TOTAL                                              $ 16,253,641   $ 16,073,547


See notes to financial statements.




                                             -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


                                                       2007          2006

SUPPORT AND REVENUES:
 Interest on cash equivalents                    $ 264,661        $ 451,184
 Interest on loans                                  98,113           57,271
 Appropriation revenue                             940,500          892,636

       Total support and revenues                    1,303,274     1,401,091

EXPENSES:
 Technical assistance                                1,436,889     1,224,956
 Recoveries of loan losses                             (96,992)      (20,180)

       Total expenses                                1,339,897     1,204,776

EXCESS OF (EXPENSES OVER SUPPORT AND REVENUES)
 SUPPORT AND REVENUES OVER EXPENSES              $     (36,623)   $ 196,315


See notes to financial statements.




                                      -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


                                                            2007           2006

FUND BALANCE — Beginning of year                        $ 14,982,129   $ 15,687,950

Change in unexpended appropriations:
 Operating appropriations received (Note 3)                 940,500            -
 Rescission of appropriations received (Note 3)                 -           (9,500)
 Appropriation revenue recognized (Note 3)                 (940,500)      (892,636)

Excess of (expenses over support and revenues)
support and revenues over expenses                          (36,623)       196,315

FUND BALANCE — End of year                              $ 14,945,506   $ 14,982,129




                                                  -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


                                                                       2007              2006

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of (expenses over support and revenues) support
   and revenues over expenses                                    $     (36,623)    $     196,315
 Adjustments to reconcile the excess of (expenses over support
  and revenues) support and revenues over expenses to net cash
  used in operating activities:
  Change in unexpended appropriations                                 (940,500)          (892,636)
  Reduction of allowance for loan losses — net of recoveries               -              (20,180)
 Changes in assets and liabilities:
  Increase in interest receivable                                      (12,451)           (6,410)
  Increase in accrued technical assistance                             216,717           254,153

      Net cash used in operating activities                           (772,857)          (468,758)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                            1,853,386         1,331,863
 Loan disbursements                                                  (7,758,587)       (4,144,500)

      Net cash used in investing activities                          (5,905,201)       (2,812,637)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received                                               940,500                -
 Recission of appropriations received                                      -               (9,500)

      Net cash provided by (used in) financing activities              940,500             (9,500)

NET DECREASE IN CASH AND CASH
 EQUIVALENTS                                                         (5,737,558)       (3,290,895)

CASH AND CASH EQUIVALENTS — Beginning of year                        8,668,980         11,959,875

CASH AND CASH EQUIVALENTS — End of year                          $ 2,931,422       $ 8,668,980

See notes to financial statements.




                                                  -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2007 AND 2006


 1. NATURE OF ORGANIZATION

    The Community Development Revolving Loan Fund for Credit Unions (CDRLF) was established by an
    act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development in
    low-income communities. The National Credit Union Administration (NCUA) and the Community
    Services Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations, governing
    administration of the Fund, on February 28, 1980.

    Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the Department of
    Health and Human Services (HHS). Because HHS never promulgated final regulations governing the
    administration of CDRLF, the Fund was dormant.

    The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
    transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
    of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
    participating credit unions in 1990.

    The purpose of CDRLF is to stimulate economic activities in the communities served by low-income
    credit unions which will result in increased income, ownership, and employment opportunities for
    low-wealth residents, and other economic growth. The policy of NCUA is to revolve the loans to
    qualifying credit unions as often as practical in order to gain maximum impact on as many participating
    credit unions as possible.

 2. SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

    Basis of Accounting — CDRLF reports its financial statements on the accrual basis of accounting.

    Cash Equivalents — The Federal Credit Union Act permits CDRLF to make investments in United
    States Government Treasury securities. All investments in 2007 and 2006 were cash equivalents and are
    stated at cost which approximates fair value. Cash equivalents are highly liquid investments with
    original maturities of three months or less.

    Allowance for Loan Losses — CDRLF records a provision for estimated loan losses. Loans considered
    to be uncollectible are charged to the allowance for loan losses. Management continually evaluates the
    adequacy of the allowance for loan losses based upon prevailing circumstances and an assessment of
    collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-performing loans
    when management believes collectibility is doubtful. At December 31, 2007 and 2006, there were no
    nonaccrual loans.

    Salary and Operating Expenses — NCUA provides certain general and administrative support to the
    CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is
    not charged to CDRLF.




                                                   -6-
  Revenue Recognition — Appropriation revenue is recognized as the related technical assistance
  expense is recognized. Total appropriation revenues will differ from total technical assistance expenses
  because not all technical assistance is funded by appropriations.

  Use of Estimates — The preparation of financial statements in conformity with accounting principles
  generally accepted in the United States of America requires management to make estimates and
  assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
  and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
  during the reporting period. Actual results could differ from management’s estimates.

3. GOVERNMENT REGULATIONS

  CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
  technical assistance, is limited by Congress to a total of the $19,564,392 appropriated for CDRLF, plus
  accumulated earnings. Federally chartered and state-chartered credit unions may participate in CDRLF’s
  Community Loan Fund. Loans may only be made to low-income credit unions as defined by NCUA.

  NCUA Rules and Regulations Section 705.7 permit the classification of the loan in the participating
  credit union’s accounting records as either a note payable or a nonmember deposit. As a nonmember
  deposit, an amount not to exceed $100,000 per credit union is insured by the National Credit Union
  Share Insurance Fund (NCUSIF). The covered amount of loans recorded as nonmember deposits by
  participating credit unions insured by the NCUSIF totaled approximately $5,790,000 and $4,553,000 at
  December 31, 2007 and 2006, respectively. Under the CDRLF Loan Program, loans recorded in the
  credit union’s accounting records as notes payable may be collateralized.

  Loans are limited to a maximum amount of $300,000 per credit union. Loans issued after January 1,
  2002, carry a fixed rate of 1%. Interest and principal are repaid on a semiannual basis beginning six
  months and one year, respectively, after the initial distribution of the loan. The maximum term of each
  loan is five years. Participating credit unions are required to match the value of the loan within one year
  of the date of approval of the loan.

  During the year ended December 31, 2005, appropriations for loans and technical assistance in the
  amount of $1,942.000 were received, of which $950,000 was for the Federal government’s fiscal year
  2006-2007. Appropriation revenue in the amount of $793,600 was recognized in 2005, leaving a balance
  to be carried over into 2006 in the amount of $1,148,400. Of the amount, $198,400 was designated to be
  used as revolving fund capital and the remainder for technical assistance.

  In January 2006, $9,500 of the fiscal 2006 – 2007 appropriation was rescinded making a net
  appropriation of $940,500 for technical assistance for the Federal government’s fiscal years 2006 –
  2007.

  During the year ended December 31, 2007, appropriations for technical assistance in the amount of
  $940,500 were received for the Federal government’s fiscal years 2007–2008. The amount was
  designated to be used as operating appropriations for technical assistance and no amount was designated
  to be used as revolving fund capital.




                                                 -7-
  For the appropriations received for technical assistance for the Federal government’s fiscal year 2007–
  2008, $940,500 expires on September 30, 2008. Appropriations of $975,000 for technical assistance
  grants are proposed for fiscal 2008–2009.

                                                                Public Laws
                                                 No. 108-199     No. 109-115     No. 110-5           Total

    Activities by each appropriation:

     Operating appropriation received — 2005    $     198,400   $   950,000     $       -       $ 1,148,400
     Operating appropriation rescinded — 2006             -          (9,500)            -            (9,500)
     Appropriation revenue recognized — 2006              -         892,636             -           892,636
     Operating appropriation received — 2007              -             -           940,500         940,500
     Appropriation revenue recognized — 2007              -             -           940,500         940,500

    Balance — December 31, 2007                 $     198,400   $    47,864     $       -       $    246,264

                                                                               2007                 2006

    Unexpended appropriations:
     Balance — beginning of the year                                    $ 1,141,442           $ 2,043,578
     Operational appropriations received (rescinded)                        940,500                (9,500)
     Appropriation revenue recognized                                      (940,500)             (892,636)

    Balance of unexpended appropriations — end of year                  $ 1,141,442           $ 1,141,442

    Revolving fund capital:
     Balance — beginning of the year                                    $ 13,435,642          $ 14,337,778
     Change in unexpended appropriations                                         -                (902,136)

    Balance of revolving fund capital — end of year                     $ 13,435,642          $ 13,435,642

4. LOANS

  Loans outstanding at December 31, 2007 and 2006, are scheduled to be repaid during the following
  subsequent years:

                                                                                 2007                2006

    2007                                                                   $         -          $ 1,828,997
    2008                                                                       2,738,295          1,655,690
    2009                                                                       3,075,324          1,549,027
    2010                                                                       2,775,356          1,247,700
    2011                                                                       2,657,106          1,105,450
    2012                                                                       2,045,984                -

    Net loans outstanding                                                  $ 13,292,065         $ 7,386,864




                                                -8-
  Changes in the allowance for loan losses are summarized below:

                                                                                      2007            2006

    Balance — beginning of year                                                   $     -        $ 20,180

    Reduction of provision for allowance for loan losses                                -            (20,180)

    Balance — end of year                                                         $     -        $       -

5. CONCENTRATION OF CREDIT RISK

  At December 31, 2007 and 2006, there are no significant concentrations of credit risk in the loan
  portfolio. As discussed in Note 1, CDRLF provides loans to credit unions that serve predominantly low-
  income communities.

6. ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

  The following disclosures of the estimated fair value of financial instruments are made in accordance
  with the requirements of Financial Accounting Standards Board Statement No. 107, Disclosures about
  Fair Value of Financial Instruments. The methods and assumptions used in estimating the fair value
  disclosures for financial instruments are as follows:

  Cash and Cash Equivalents — The carrying amounts for cash and cash equivalents approximate fair
  values.

  Interest Receivable and Accrued Technical Assistance — Such items are recorded at book values,
  which approximate the respective fair values.

  Loans — The fair value is estimated by discounting projected future cash flows using current market
  interest rates. For purposes of this calculation, the discount rate used was the prime interest rate plus two
  percent (5.26% and 6.76% at December 31, 2007 and 2006, respectively).

  The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as follows:

                                                   December 31, 2007                     December 31, 2006
                                               Carrying        Estimated              Carrying      Estimated
                                               Amount          Fair Value             Amount        Fair Value
    Assets:
     Cash and cash equivalents             $   2,931,422     $   2,931,422        $ 8,668,980        $ 8,668,980

     Loans                                 $ 13,292,065      $ 11,817,193         $ 7,386,864        $ 6,358,776

     Interest receivable                   $      30,154     $      30,154        $     17,703       $       17,703

    Liabilities — accrued technical
     assistance                            $   1,308,135     $   1,308,135        $ 1,091,418        $ 1,091,418
    It is the intent of CDRLF to hold its loans to maturity. CDRLF anticipates realizing the carrying amount
    in full. Fair value is less than the carrying amount because loans are made at less than market interest
    rates.

                                                ******



                                                 -9-
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of and for the year ended December 31, 2007, and have
issued our report thereon dated February 13, 2008. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered CDRLF’s internal control over financial reporting as
a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CDRLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
CDRLF’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.




                                                  - 10 -
Compliance and Other Matters

As part of obtaining reasonable assurance about whether CDRLF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit and, accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We noted certain matters that we reported to management of CDRLF in a separate letter dated February
13, 2008.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Community Development Revolving Loan Fund and is not intended to be and should not be used by
anyone other than these specified parties.



February 13, 2008




                                                - 11 -
